Audit Report

Office of Community Oriented Policing Services Grants to the Passamaquoddy Tribe and Pleasant Point Reservation Police Department, Perry, Maine

Report No. GR-70-05-006


December 2004 
Office of the Inspector General


Executive Summary





On September 8, 2004, the Office of the Inspector General, Audit Division, issued a 60-day warning memorandum (See Attachment II) on grants awarded to the Passamaquoddy Tribe and Pleasant Point Reservation Police Department (Tribe) by the Office of Community Oriented Policing Services (COPS).  The purpose of the memorandum was to advise the COPS Office that the Tribe could not provide us with critical grant records, and that if these records were not made available to us, we would question the funds received by the grantee as unsupported.  After the initial 60-day period had elapsed, the COPS requested an extension of an additional 60 days.  We granted a 2-week extension, ending November 26, 2004.  After reviewing the limited records the Tribe provided during our on-site review, we determined that the records were not sufficient to allow us to continue the audit.

The Tribe was awarded four Tribal Resources Grant Program (TRGP) Equipment and Technology grants totaling $556,564 to purchase equipment and to train officers and three TRGP hiring grants totaling $776,342 to hire officers.   
The grant numbers are: 

Equipment and Technology
   1999HEWX0018
   2000HEWX0033
   2002HEWX0030
   2003HEWX0116

          Hiring
   1999HHWX0018
   2002HHWX0013
   2003HHWX0040
Grant guidelines require that each grantee establish and maintain an accounting and financial records system to account accurately for funds awarded.  Such a system should:  1) present and itemize approved costs of salaries and benefits and show the actual costs of salaries and benefits; 
2) assure responsible use of grant funds; 3) assure that funds are spent in conformance with the grant conditions; and 4) provide the necessary information for periodic review and audit.

The Tribe did not provide the following requested information:

a list of grant-funded officers for each year of the period covered by the  hiring grants (1999-2004);

	the number of officers on the payroll from September 1994 - 2004;

	payroll records to support the October 1, 1994, baseline number of 
	locally-funded officers contained in the grant applications;

	documentation supporting the number of non-COPS-funded grant officers and the time period covered by each grant;

	documentation supporting the average vacancy rate for sworn police officers in 1998;

	detailed accounting records and supporting documentation for all expenditures charged to each grant;

	documentation indicating the source, amount, and contribution date of local matching funds for each grant;

	documentation of the community policing strategy;

	all of the grant reports submitted to the Department of Justice (including all Initial Reports, the Annual Progress Reports, and Financial Status Reports); and

	a list of computer and equipment charged to the grant and the detailed accounting records to support the purchase of these items.

We made every effort during our site visit to complete an audit based on the information the Tribe provided.  On November 8, 2004, we granted a
2-week extension to allow the Tribe to gather the documentation necessary for us to complete the audit.  Based on the limited data provided to us during our site visit and the absence of any of the documentation requested in our warning memorandum, it is not possible to render an opinion other than this disclaimer.  Therefore, we are questioning, as unsupported, the entire amount of the three Hiring grants and four Equipment and Technology grants totaling $1,332,906.